HHS/OIG, Audit - "Audit of Medicaid Clinical Laboratory Services in Oklahoma for Calendar Years 1996 through 1999," (A-06-01-00026)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Clinical Laboratory Services in Oklahoma for Calendar Years 1996 through 1999," (A-06-01-00026)
July 9, 2002
Complete
Text of Report is available in PDF format (1.67 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was conducted as a joint Federal/State project under the Office
of Inspector General's Partnership Plan with the Oklahoma Health Care Authority
(OHCA).  The review indicated that OHCA did not have adequate edits in
its claim processing system to ensure that all reimbursement for clinical laboratory
tests under Medicaid did not exceed amounts recognized by the Medicare program.
Based on the results of our review for laboratory procedures performed during
the period January 1996 through December 1999, we determined that OHCA made
payments of $54,780 ($38,690 Federal share) in excess of what Medicare recognizes
for the same tests.  In addition to procedural corrections, the OHCA agreed
to a financial adjustment for the $38,690.